02/.2/06   WED 17:02 FAX 423 241 3897                  OIG                           -** HQ           .          001



     United States Government                                                          Department of Energy
                                                                                       Department of Energy

     memorandum
           DATE:      February 9, 2006
                                                                    Audit Report Number: OAS-L-06-07
       REPLY TO
        ATTN OF;     IG-32 (A050R014)
       SUBJECT:      Audit of "The Department's Management of
                                                              United States Enrichment Corporation Site
                     Services"

           TO:       Manager, Portsmouth/Paducah Project Office


                     INTRODUCTTON AND OBJECTIVE

                     The Paducah Gaseous Diffusion Plant (Paducah), located in western
                     constructed by the Department of Energy                               Kentucky, was
                                                                (Department)inthe early 1950s to enrich
                     uranium for use invarious military and commercial
                                                                         applications. The Department
                     operated the plant until the Energy Policy Act
                                                                    of 1992 created the United States
                    Enrichment Corporation (USEC)as a Government-owned
                    Paducah be leased to USEC. USEC operated Paducah            corporation and directed that
                                                                            as a Governmnent-owned
                    corporation until July 1998, when the Government privatized USEC
                                                                                          by selling stock in
                    the corporation to the public. USEC still operates Paducah
                    1993 lease with theDepartment.                               according to the terms ofa

                    The Department's mission at-Paducah is primarily related to environmental
                    and legacy waste management. Additionally,                                  restoration
                                                                   the Deparrtment retained responsibility for
                    decommissioning the site's uranium enrichment facilities upon final plant shutdown.
                    These activities are managed by the Office of Environmental
                    Jacobs Company, LIC (Bechtel Jacobs) is currently             Management and Bechtel
                                                                         performing environmental cleanup
                    activities at Paducah under a cost reimbursable contract.

                   Exhibit F to the lease, Memorandum qfAgreement between United States
                                                                                               Department of
                   Ener.y and United States Enrichment Co porationforServices,  t    states that USEC can
                   provide services to the Department at costs to be negotiated for each service. InFiscal
                   Years (FY)2002 through 2005, the Department and Bechtel Jacobs.purchased about
                   $45.5 million inservices ftom USEC to support its environmental
                                                                                       restoration and waste
                   management mission at Paducah. We conducted this audit to determine
                   Department managed the cost of services provided                          if the
                                                                       by USEC.
                   CONCLU'SIONS AND OBSERVATIONS

                   We identified instances where the Department and its
                                                                          contractor paid for services
                   provided by IJSEC, through indirect charges and
                                                                     overhead rates, without assuring that
                   they received the full benefit from such costs. Intotal,
                                                                            these costs are estimated to be
                   about $922,000, of which about $149,000 recur
                                                                    each year.
02/22/06   WED 17:02 FAX 423 241 3897                 OIG                             ---   *   HQ                    0002




                    Additional costs that USEC charged to Bechtel Jacobs through indirect charges
                                                                                                         and
                    overhead rates folowing a February 2003 employee strike at Paducah
                   audited. Federal Acquisition Regulation (FAR) section 2 2 0                 have not been
                                                                                  ..
                                                                                   1 1.2(c)
                   incurred during strikes be carefully examined to ensure that only those  requires  that all costs
                                                                                               costs necessary
                   for performing the contract in accordance with the Government's essential interest
                   recognized. In 2004, based on an adjustment of 2003 provisional                          be
                  issued an adjustment voucher to Bechtel Jacobs                         billing rates, USEC
                                                                       which included, but did not segregate
                  out, additional costs resulting from the 2003 strike. Bechtel Jacobs paid 'USE, and the
                  Department provisionally reimbursed Bechtel Jacobs for these additional costs without
                  first ensuring that they benefited the Government. Although the Department was aware
                  that the strike likely increased its costs, it was not aware of the extent of the cost increase.
                  USEC estimated that the strike resulted in an additional $773,000 in charges to the
                  Department but it has yet to supply final 2003 incurred cost data to the
                  Audit Agency (DCAA) for audit.                                               Defense Contract

                   Also, USEC did not allocae indirect security support
                                                                              costs on a cost beneficial basis.
                   This further increased the Department's share of security
                  security support costs benefited three separate                costs at Paducah. Although
                                                                     cost objectives - USEC specific     activities
                  (23 percent of the cost), Department specific activities (2 percent of the cost),
                                                                                                       and
                  common site security support (75 percent of the cost),
                  these cost objectives. FAR section 31.201-4 required costs were not allocated between
                                                                             that costs be allocated to cost
                  objectives on thle basis of relative benefits received
                 concluded that security support costs should have        or other equitable relationships. We
                                                                        been allocated between the Department
                 and USEC on a more equitable basis even though
                                                                        these costs benefited all activities at the
                 site. At our request, USEC prepared an estimate of
                 methodology on the Department's costs. Based on calendar the impact of its current allocation
                 rates, USEC estimated that not allocating security                 year 2004 provisional billing
                                                                        support pool costs between cost
                 objectives resulted in about $149,000 in additional charges to the Department
                                                                                                      each year.
                 The Department believed that purchasing services wider the 1993 lease
                                                                                              was beneficial
                 since fee was not paid on services provided by USEC under the lease. Additionally,
                                                                                                            the
                 Department is using DCAA to review USEC's cost accounting standards disclosure
                 statement, indirect billing rates, and incurred cost submissions
                administrative controls over the acquisition of services.           in an effort to strengthen
                                                                             While we acknowledge the
                Department's attempt at lowering the cost of services
                                                                         purchased from USEC and its use
                of DCAA's services, we suggest that the Manager, Portsmouth/Paducah.
                notify DCAA of the cost allocation issues discussed                           Project Office,
                                                                        in this report and determine the
                allowability of additional costs associated with the 2003
                                                                             strike and security support costs.
                SCOPE AND METHODOLOGY

                The audit was performed from May through November 2005, at the Departnent's
                Ridge Office in Oak Ridge, Tennessee; the Paducah                                Oak
                Paducah, Kentucky; and, the Portsmouth Gaseous     Gaseous  Diffusion Plant near
               The audit scope was limited to services           Diffusion Plant near Piketon, Ohio.
                                                       provided by USEC in FY 2002 through
               accomplish the audit objective, w analyzed                                     2005. To
                                                         e the 1993 lease agreement between SEC
               and the Department, the USEC Privatization Act, work authorizetion documents, and
               invoices for services provided by USEC.

                                                      2
02/2206'   WED 17:03 FAX 423 241 3897               OIG                            4*-*   HQ                       003




                   The audit was performed in accordance with generally
                   standards for performance audits and included            accepted Government auditing
                                                                  tests of internal controls and compliance
                   with laws and regulations to the extent necessary to satisfy the audit objective.
                  Accordingly, we assessed the Department's compliance
                                                                             with the Government
                  Performance and Results Act of 1993 and found that the
                  performance measures for the acquisition                    Department had not established
                                                             of services from USEC. Because our review
                  was limited, it would not necessarily have disclosed
                  may have existed at the time of our audit. We         all internal control deficiencies that
                                                                  did not rely on computer-processed     data to
                  accomplish the audit objective, and therefore did not conduct adata reliability
                  assessment.

                  The Manager, Portsmouth/Paduc, Project Office, waived
                                                                            the exit conference. Because
                  no formal recommendations are being made
                                                           in this letter report, a formal response is not
                  required.




                                                           redrick G. Piepcr, Division Director
                                                          Energy, Science and Environmental
                                                            Audits Division
                                                          Office of Inspector General
           cc:   Chief of Staff
                 Team Leader, Audit Liaison Team, CF-1.2
                 Audit Liaison, Office of Environmental Management,
                                                                     EM-33
                 Audit Liaison, Portsmouth/Paducah Project Office,
                                                                   PPPO
                 Audit Liaison, Oak Ridge Office, FM-733




                                                     3
